mn
C@OQCKLE

L e g a I B a e fs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-426

COMMONWEALTH OF PENNSYLVANIA,
Petitioner,
v.
MICHAEL J. HICKS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the AMICUS CURIAE BRIEF
OF THE PENNSYLVANIA DISTRICT ATTORNEYS ASSOCIATION IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1616 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of October, 2019.
T am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE \
General Notary .
State of Nebraska Ot Lu Quid ,

Notary Public Affiant 38824

My Commission Expires Nov 24, 2020

 
